<html>
<title> - CALLING UPON THE GOVERNMENT OF TURKEY TO FACILITATE THE REOPENING OF THE ECUMENICAL PATRIARCHATE'S THEOLOGICAL SCHOOL OF HALKI WITHOUT CONDITION OR FURTHER DELAY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 CALLING UPON THE GOVERNMENT OF TURKEY TO FACILITATE THE REOPENING OF 
   THE ECUMENICAL PATRIARCHATE'S THEOLOGICAL SCHOOL OF HALKI WITHOUT 
                       CONDITION OR FURTHER DELAY 

=======================================================================

                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. Res. 188

                               __________

                           NOVEMBER 19, 2013

                               __________

                           Serial No. 113-90

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-639 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 188, Calling upon the Government of Turkey to facilitate 
  the reopening of the Ecumenical Patriarchate's Theological 
  School of Halki without condition or further delay.............     6

                                APPENDIX

Markup notice....................................................    14
Markup minutes...................................................    15
Markup summary...................................................    16
The Honorable George Holding, a Representative in Congress from 
  the State of North Carolina: Prepared statement................    17
 CALLING UPON THE GOVERNMENT OF TURKEY TO FACILITATE THE REOPENING OF 
   THE ECUMENICAL PATRIARCHATE'S THEOLOGICAL SCHOOL OF HALKI WITHOUT 
                       CONDITION OR FURTHER DELAY

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:19 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. This markup and this meeting of the 
Subcommittee on Europe, Eurasia, and Emerging Threats will come 
to order. And right off the bat, I ask for unanimous consent 
that Mr. Gus Bilirakis be recognized to briefly explain his 
resolution, which we will be marking up. That is H. Res. 188. 
And without objection, so ordered.
    Mr. Bilirakis, you have been an active, aggressive member 
of the Foreign Affairs Committee and a Member of Congress 
respected for your opinions. And we know that you have no bias 
when it comes to anything to do with Greece.
    Mr. Bilirakis. Well, this is an issue for the whole world, 
Mr. Chairman. I appreciate that. There are 300 million Orthodox 
Christians, and I really appreciate you agendaing this bill. I 
really do.
    Mr. Rohrabacher. Based on principle, as all of your 
decisions are.
    Mr. Bilirakis. Absolutely.
    Mr. Rohrabacher. And you may proceed with discussing with 
us what H. Resolution 188 is all about.
    Mr. Bilirakis. Thanks very much. Sir, I really appreciate 
it.
    Very shortly, Members, this subcommittee will have an 
opportunity to pass H.R. 188, which calls upon the Government 
of Turkey to facilitate the reopening of the Ecumenical 
Patriarchate's Theological School of Halki without condition or 
further delay.
    I urge you to support this measure, just as you did 
unanimously last year when it passed out of the full committee. 
This resolution is significant to all Eastern Orthodox 
Christians, folks who live in our districts, because of its 
importance of making sure the very essence of the church 
survives.
    The Theological School in Halki, founded in 1844 and 
located outside of Istanbul, Turkey, served as the principal 
seminary for the Ecumenical Patriarchate until its closure by 
the Turkish authorities in 1971. In addition to countless 
priests and bishops, the seminary has trained 19 Patriarchs, 
including our current Ecumenical Patriarch Bartholomew. The 
aging population and dwindling numbers of the Orthodox clergy 
in Istanbul, combined with the Turkish law which requires that 
the Ecumenical Patriarch to be a Turkish citizen almost assures 
the ends of the succession process for our spiritual leader. So 
you can see why Halki and its Ecumenical Patriarchate is so 
essential to Eastern Orthodox Christians.
    It is the spiritual home of the world oldest and second 
largest Christian church. Essentially it is the Orthodox 
Christians--to Orthodox Christians what the Vatican is to 
Catholics, Mr. Chairman. More than 300 million Orthodox 
Christians around the world and millions of Orthodox Christians 
in the United States are turning to find hope in this 
subcommittee's approval of H. Res. 188, knowing that the 2,000-
year-old Sacred See of the Ecumenical Patriarchate will be 
also--it will be able to teach future religious leaders for 
generations. This closure has been an issue of concern for the 
American people, Members of Congress, and multiple Presidential 
administrations.
    Mr. Chairman, while Orthodox Christians and friends of 
religious freedom have appreciated over the past decade 
encouraging signs from the Government of Turkey related to the 
impending opening of the seminary, the deal has not been done 
yet. The deal has not been closed. This resolution simply 
encourages Turkey to take that last affirmative step.
    I can go on, Mr. Chairman, but I know you get my drift. 
Will you permit me go on for 30 more seconds?
    Mr. Rohrabacher. You go right ahead.
    Mr. Bilirakis. I know where you are, and I know you have 
cosponsored the bill, and I really appreciate it very much.
    And, Members, it would mean the world to the Orthodox 
community in the United States, but throughout the world, if we 
were to pass this in the subcommittee and ultimately on the 
floor of the House of Representatives.
    Thank you very much, and I yield back.
    Mr. Rohrabacher. All right. And we have with us also, of 
course, the ranking member, Mr. Keating. Do you have an opening 
statement?
    Mr. Keating. Thank you, Mr. Chairman.
    Over the years Greece and Turkey have made great strides in 
improving their economic and political ties through increased 
exchanges, dialogue and business opportunities. These steps not 
only benefit the relations between the two countries, but also 
in the development and stability of the wider region of 
Southeast Europe and the Eastern Mediterranean. This region is 
also uniquely situated and draws in visitors from all over the 
world, who not only want to experience the picturesque 
landscapes, but visit the diversity of culture and the 
historical sites.
    For this reason the increased benefits of measures to 
promote diversity are well recognized. I believe Prime Minister 
Erdogan understood this well when he and some of his ministers 
vowed to reopen the Halki Seminary in Turkey.
    The Halki Seminary is the main theological school of 
Eastern Orthodox Christianity and was shut down in 1971. The 
Justice and Development Party raised the hopes of Orthodox 
Christians all around the world when they announced they would 
reopen the seminary, and a proposed democratization package 
seemed to be an appropriate channel for this change. Many were, 
however, surprised to see that the reopening of Halki was not 
included under the provisions of this package when it was 
announced. Since then, Prime Minister Erdogan's rhetoric on 
Halki has taken a turn, and conditions and reciprocity demands 
are now attached to reopening of the school.
    I fear that this type of rhetoric threatens to undo much of 
the progress that has been made in Turkey. And further, it may 
have a negative impact of dividing Turks and stalling long-
awaited progress on the issue of Halki as well as other issues 
concerning Turkish minority groups. I recognize that Turkey has 
come a long way, but hope this is not--that now they are 
willing to make this final push for Halki.
    I don't think it is too late. I hope that the Prime 
Minister will reconsider his new-found position on Halki and 
encourage the long-advocated rights for all Turks within the 
Turkish Republic. As I said earlier, this is not just important 
for Turkey, it is important for the region as a whole.
    And with that, I yield back, Mr. Chairman, and thank you.
    Mr. Rohrabacher. Thank you very much.
    And, Mr. Holding, do you have a statement that you would 
like to make?
    Mr. Holding. Mr. Chairman, I will submit one for the 
record.
    Mr. Rohrabacher. All right. And a couple of my colleagues 
as well.
    Let me just begin by saying that we are very grateful to 
Congressman Bilirakis for his leadership on issues like this. 
His expertise and his attention that he has paid to this part 
of the world is a great asset to the Congress. And just this is 
a fine example of what we need to pay attention to, because 
sending a message today, which is what we are doing, sending a 
message to Turkey today to make sure that they send us a 
message back about the way they are going to be dealing with 
their part of the world is vitally important for us to 
understand.
    And our message to them is that, yes, we are concerned that 
the Turkish Government not be molded after other governments 
that have a certain tie to the Islamic faith. And in other 
governments that have a radical commitment to Islam and 
promoting Islam, we have found that that type of government 
turns--is an anti-Western approach, is a threat to our well-
being. At the same time we know that we need models in the 
Islamic world of moderation and of, yes, pro-Western sentiment, 
and that is what we have in Turkey today, a country that is--
obviously a country where the vast majority of its population 
is Islamic, but we are asking them to send us a message today, 
send the rest of the world a message today, that they do 
respect--yes, they respect and they identify with Islam, but 
they respect human rights. They respect the religious 
convictions of others. And nowhere would Turkey be able to not 
only say that, but to demonstrate it to the world that they are 
indeed respectful and are not going to go this other direction 
of repression of other faiths in the name of the majority faith 
of that country--there is no better message that they could 
send to us and reaffirming their ties with the West than the 
seminary in Halki and making sure that that was open and shown 
as an example of the positive intent of the Turkish Government 
and the Turkish people.
    Turkey is an important historical ally, and having been a 
key NATO member for decades, it has, for example, played a huge 
role in the Cold War. And had it not been for the support of 
the Turkish Government and people, the Cold War would have 
turned out in a totally different way, and this would be a 
different world, a worse world without that.
    But despite their initial lack--and, of course, we have had 
some problems--despite their initial lack of assistance at the 
beginning of the Iraq war, which many of us noted that, which 
may have saved some United States lives and some of our troops 
that were engaged in Iraq and that part of the world, and, of 
course, basing their overflight access and regulating that, 
that is something that we have had to pay close attention to as 
well recently. And their permitting us these overflights has 
been critical to the safety and security of American troops 
operating in that region, just as, I might say, unfortunately 
their opposition in the beginning in terms of not allowing us 
in the beginning of the Iraq war to base our operations, some 
of them, out of Turkey was detrimental to that effort.
    So I come to this discussion realizing that Turkey is a 
free and independent country, a proud country, and they will 
make determinations which reflect their values and reflect 
their long-term goals, as they should, as they should. But now 
we are hoping they will send us a signal today that don't 
worry, we are really your friends and friends of the West. I 
say that I hope this will spur some action on their part, 
because I come to this discussion as a friend and admirer of 
Turkey. And I say that personally, and I know that probably 
reflects some of my colleagues as well.
    Turkey's recent decision, however, to buy, for example, 
Chinese long-range antimissiles, this antimissile system, does 
trouble me. We do have American companies that were available 
who actually sell other weapons systems, antimissile weapons 
systems, and I reminded the Turkish Foreign Minister just 
yesterday that it might have been better for Turkey to buy the 
antimissile system from the United States because it was our 
technology that was probably stolen by the Chinese that are now 
been sold to them by the Chinese companies.
    Well, the resolution before us today is not--we are going 
to have agreements and disagreements with every free country in 
the world, and this resolution today is not aimed at what some 
people would have us do, just taking a gratuitous slap in the 
face of Turkey. And I have seen that far too often in the last 
25 years that I have been here that people want to just hurt 
Turkey, and that is their--you are going to show you are a good 
person by--you are allied with us if you hurt Turkey.
    Well, the bottom line today, that is not what this is all 
about. This is actually a way that if the Turks send us this 
message, agreeing with what we are asking them to do, which is 
nothing more than to fulfill an agreement they have already 
made, and to respect the rights of the Greek people and 
actually show a respect for those religious beliefs, just as we 
would have the Greek people respect the beliefs of the Turkish 
people, that this is a way that we could basically make some 
real points that were meaningful in a very easy and quick way.
    So we are not asking--this isn't a cheap shot, this isn't 
criticism. This is a request in a very dignified way. And I 
want to thank Congressman Bilirakis for crafting this so well 
that this will be seen as a respectful request of Turkey and 
not just condemning them for something that we think is not 
right at this moment.
    And so there is no better way for the Turks to send us--to 
send all of the Western world a message, a positive message, 
than to reopen this theological school at Halki.
    Long before the introduction of Islam in Turkey, Turkey was 
the outpost of the Christianity. This is very--and what we are 
talking about is an historic site in that whole history of the 
region tied to ancient Constantinople. The school has a history 
that spans 17 centuries representing the Orthodox Church and 
linking the Christian and Muslim worlds. What a better example 
they could have to us of a commitment of a peaceful transition 
point. They could be the actual bridge, which is what Turkey 
has always been, and just by giving us this sign today about 
reopening this theological school.
    The reopening of this school has been endorsed by previous 
Congresses, the European Court of Human Rights, and even the 
Turkish Prime Minister at one point has endorsed this 4 years 
ago. Turkey's long tradition of tolerance and peace between the 
religions should be maintained and preserved and basically 
demonstrated for us in the opening of this theological school 
that is so important to their neighbors.
    And so I would ask my colleagues to join me today in 
supporting this resolution and hopefully, if you could inform 
my staff, become a cosponsor, if you are not already a 
cosponsor, on this bill.
    So as we move forward, at that point is there anyone else 
with an opening statement?
    If not, does anyone have any amendments to offer?
    Mr. Bilirakis. I have none.
    Mr. Rohrabacher. Anyone have any amendments to offer?
    The bill is before us. I call up for H. Resolution 188, 
calling upon the Government of Turkey to facilitate the 
reopening of the Ecumenical Theological School at Halki without 
condition or further delay.
    Without objection, this measure will be considered as read 
and open for amendment.
    [H. Res. 188 follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rohrabacher. And as I have stated, there will be--we 
have already seen there are no amendments, so I now recognize 
the ranking member for his remarks. And would you like us to 
proceed with a motion?
    Mr. Keating. Yes, Mr. Chairman. Let us proceed with the 
motion.
    Mr. Rohrabacher. All right. So all of those who agree with 
H. Resolution 188, say aye.
    And let the record note that Mr. Lowenthal said aye.
    Mr. Lowenthal. Aye.
    Mr. Rohrabacher. All right.
    And all those opposed? All those opposed?
    I hear no opposition, so the resolution passes. And without 
objection, H. Resolution 188, as amended, is ordered to be 
favorably reported to the full committee, and the staff is 
directed to make any technical and conforming changes.
    Unless someone else has any other business, we are now 
adjourned.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                     Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
